HHS/OIG-Audit--"Office of Inspector General's Partnership Plan - Outpatient
Claims for California's Medicaid Program, (A-09-98-00068)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan - Outpatient Claims for
California's Medicaid Program," (A-09-98-00068)
March 16, 1998
Complete Text of Report is available in PDF format
(2.44 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review conducted by the California State Auditor (CSA), as part of the
OIG's partnership efforts with State Auditors to expand audit coverage of the
Medicaid program, points out that the California Department of Health Services
(DOHS) overpays hospitals about $1.6 million annually for outpatient claims
because its automated payment system lacks certain edits necessary for the administration
of the contracting program the State has with hospitals. Among other things,
the State Auditor recommended that DOHS: (1) examine hospital contracts to identify
all provisions affecting the eligibility of outpatient claims, (2) develop an
accurate database for identifying procedures covered under each hospital's contract,
(3) improve the accuracy of diagnosis codes used to determine the eligibility
of outpatient claims, and (4) analyze, refine, and test claims processing edits
to address special situations regarding claim eligibility identified by the
audit. The DOHS generally concurred with the State Auditor's recommendations.